STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

January 8, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

New York State Rifle & Pistol Association, Inc. v. Corlett, No. 20-843
Request for extension of time

Dear Mr. Harris:
I write on behalf of respondents Keith M. Corlett and Richard J. McNally,
Jr., to request an extension of time to oppose the petition for a writ of certiorari in
this matter. The current deadline is January 22, 2021, and respondents
respectfully seek an extension of thirty days. A thirty-day extension results in a
deadline of February 22, 2021 to file an opposition.
Petitioners’ counsel has stated that petitioners do not object to this request.
Thank you for your consideration.
Respectfully submitted,
BARBARA D. UNDERWOOD
Solicitor General
cc:

Paul D. Clement (counsel for petitioners)

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

